May 15, 2003

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Postal Inspection Service Controls Over Firearms Inventory
         Reconciliation (Report Number SA-AR-03-002)

This interim report presented a significant finding that needed to be promptly addressed
by management, which was identified as a result of our self-initiated audit of the Postal
Inspection Service Controls Over Firearms Inventory Reconciliation (Project
Number 03BN001OA000).

The audit revealed the data in the current database system and the old database
system did not reconcile. Management, in their response, stated they were aware of
the inventory variances between the old and the new inventory systems. However, the
discrepancies were not reported to the General Accounting Office (GAO). Additionally,
a physical inventory conducted in November and December 2002 did not report any
inventory discrepancies.

We made three recommendations to management. They were to conduct a complete
physical inventory and reconciliation of data, notify the GAO of the inventory errors, and
update the National Crime Information Center with the most current information.

Although management did not state whether they agreed or disagreed with the
three recommendations, management’s actions taken or planned are responsive to the
intent of the recommendations.

                                     Background
During our research, we identified the Postal Inspection Service provided inaccurate
information concerning firearms inventory, policies, procedures, and lost firearms to the
GAO. GAO is conducting a study of federal executive law enforcement agencies’
controls over firearms at the request of the House Committee on the Judiciary. On
December 31, 2002, the Postal Inspection Service amended their initial response to
GAO. Until September 2001, the Postal Inspection Service relied on the Inspection
Service Data Base Information System to manage their firearms inventory. In
October 2001, the Postal Inspection Service implemented a new database to manage




                                    Restricted Information
Postal Inspection Service Controls Over                                       SA-AR-03-002
 Firearms Inventory Reconciliation


the firearms inventory known as the Firearms Module of the Postal Inspection Service
National Asset Tracking System. The new database is used to manage all Postal
Inspection Service firearms as accountable property and was the source of information
used by the Postal Inspection Service to respond to the GAO study of federal executive
law enforcement agencies controls over firearms.

According to the U.S. Postal Inspection Service Manual, all firearms used by inspectors
and postal police officers are considered accountable property. These firearms are
required to be accounted for from acquisition through final disposition, to include
transfer, retirement, destruction, and lost, stolen, or missing. On November 5, 2002, a
national firearms inventory was ordered for all Postal Inspection Service firearms and
was to be completed no later than close of business December 31, 2002.

                          Objective, Scope, and Methodology
The objective of this portion of the audit was to determine whether firearms reported as
lost, stolen, or missing were accurately transferred from the old database to the new
accountability system. To accomplish the audit objective, we conducted a review and
comparison of lost, stolen, or missing firearms on the current database to the previous
Inspection Service Data Base Information System inventory. We reviewed firearms
inventories, supporting documentation, and conducted interviews.

This audit was conducted from December 2002 through May 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.

                                     Prior Audit Coverage
We did not identify any prior audits or reviews related to the objective of this audit
except for the GAO study of federal executive law enforcement agencies controls over
firearms requested by the House Committee on the Judiciary.

                                               Results
Postal Inspection Service Firearms Inventory Inaccurate

We found the data in the current database system and the old database system did not
reconcile. Specifically, 23 firearms listed as lost, stolen, or missing in the old system
were shown as “InService” in the new system. Also, a Postal Inspection Service-wide
inventory of firearms completed December 31, 2002, indicated the same 23 firearms




                                                     2
                                          Restricted Information
Postal Inspection Service Controls Over                                                               SA-AR-03-002
 Firearms Inventory Reconciliation


were on hand. However, a database query of the National Crime Information Center1
for the 23 firearms previously listed as lost, stolen, or missing showed that 92 of the
23 firearms were currently listed as stolen weapons.

The Inspection Service Operations Support Group manager responsible for the firearms
inventory stated that there were data migration problems with the 2001 change in the
firearms database. The manager also stated the accuracy of the inventory is dependent
on the quality of the firearm coordinator’s physical inventory. Additionally, the firearms
controlled by the coordinator are not independently verified.

In one specific example, a postal inspector reported his firearm stolen in early 1998 and
it was reported on the 1998 national inventory as lost, stolen, or missing. In 2001, the
firearm appeared on the inventory as lost, stolen, or missing. During our review we
determined:

    •    The 2002 firearms inventory listed the 1998 lost firearm as “InService” and
         assigned to the postal inspector who reported it stolen although the same postal
         inspector said it had not been recovered.

    •    On December 30, 2002, the responsible firearms coordinator initialed the
         national firearms inventory printout indicating the lost weapon was “InService”
         and assigned to the postal inspector who reported it stolen in 1998 along with the
         firearm the postal inspector was assigned to replace the stolen firearm. As a
         result, the inventory reflected the postal inspector was assigned two firearms with
         a status of “InService” for both. The Office of Inspector General (OIG) confirmed
         with the postal inspector that he has one firearm currently assigned and it was
         the firearm issued to replace the firearm reported stolen in 1998.

    •    On December 30, 2002, the responsible division inspector in charge certified the
         inventory initialed by the firearms coordinator was “. . . accurate for calendar
         year 2002.”

    •    The serial number for the stolen firearm reported to the National Crime
         Information Center was incorrect.

As a result, the Postal Inspection Service’s firearms accountable records and the recent
physical inventory are inaccurate. Therefore, the Postal Inspection Service controls
over these highly sensitive assets are inadequate. Management’s comments in their
entirety are included in the appendix of this report.


1
  National Crime Information Center is operated by the Federal Bureau of Investigation and is a computerized
database used by authorized agencies to report and access information concerning missing persons, wanted
persons, criminal history, stolen guns, and other law enforcement information. Additional information about the
National Crime Information Center is available at www.fas.org/irp/agency/doj/fbi/is/ncic.htm.
2
  One of the nine firearms in the National Crime Information Center was listed with the wrong serial number.



                                                         3
                                              Restricted Information
Postal Inspection Service Controls Over                                       SA-AR-03-002
 Firearms Inventory Reconciliation


Recommendation

We recommend the chief postal inspector:

1. Conduct an immediate national independent physical firearms inventory managed by
   the Postal Inspection Service’s Internal Affairs division to update the existing
   firearms inventory within the next 60 days. In addition, implement a reconciliation of
   the previous Inspection Service Data Base Information System firearms inventory to
   the current Firearms Module of the Postal Inspection Service National Asset
   Tracking System along with the physical inventory results documenting all
   discrepancies.

Management’s Comments

Management neither agreed nor disagreed with the recommendation. Management
stated they were aware of the inventory variances between the old and the new
inventory systems. They attributed their lack of action to the events of September 11,
2001, and subsequent anthrax investigations. The Inspection Service National Threat
Management coordinator position, with responsibilities for firearms training, ammunition
procurement, body armor specification, and inventory records, has been reassigned to
national headquarters to enhance oversight of controls over firearms.

Management also convened a management task force to conduct a complete physical
account of the firearms inventory and independent verifications to resolve data
migration issues. In addition, the task force will review internal control processes and
make necessary enhancements to the Inspection Service National Asset Tracking
System to ensure the physical inventory is accurately recorded. Last, all firearms
coordinators will receive training in April 2003 to ensure they can navigate and enter
data properly in the tracking system. The target date for implementation of all
recommendations is September 30, 2003.

Evaluation of Management’s Comments

Management’s comments are responsive to the intent of the recommendation.
However, if management was aware of data migration errors, these should have been
noted in responding to GAO’s study of federal law enforcement controls over firearms.

While the Postal Inspection Service had a key role in the investigation of September 11,
2001, and the subsequent anthrax attacks, this does not explain why a physical
inventory conducted in November and December 2002 did not accurately report the
firearms on hand or why inaccurate inventory records were certified as correct by the
Inspection Service’s firearms coordinators and their respective field inspectors
in-charge. The inventory conducted during November and December of 2002, certified
as correct, was independent of the data migration issue that occurred a year earlier and
would have confirmed that some weapons were still lost, missing, or stolen. Instead, all



                                                     4
                                          Restricted Information
Postal Inspection Service Controls Over                                      SA-AR-03-002
 Firearms Inventory Reconciliation


weapons were shown as “InService,” the same status as recorded in the new inventory
system.

Recommendation

We recommend the chief postal inspector:

2. Notify GAO of the current discrepancy in the national firearms inventory provided to
   them on December 31, 2002, and provide GAO with the corrected information as
   soon as it is available. In addition, provide the OIG with a copy of any updated
   response to GAO and any other information provided to GAO concerning this matter.

Management’s Comments

Management neither agreed nor disagreed with the recommendation. Management
stated they will notify GAO once they have completed the review and fully implemented
all enhancements in the new firearms systems scheduled to be completed by
September 30, 2003.

Evaluation of Management’s Comments

Management’s comments were not fully responsive to this recommendation. GAO
expected to forward their report to federal agencies for comment in mid-April 2003 with
a final report expected in mid-June 2003. Providing GAO with corrected data in
September is not timely and would be of questionable benefit after the GAO report has
been issued. Subsequent to the OIG’s receipt of management’s comments and a
meeting with the OIG and the chief postal inspector, the Postal Inspection Service
contacted GAO and notified them of the inventory discrepancy, satisfying the intent of
the recommendation.

Recommendation

We recommend the chief postal inspector:

3. Update the National Crime Information Center system where necessary with lost,
   stolen, or missing firearms information.

Management’s Comments

Management neither agreed nor disagreed with the recommendation. Management will
update the National Crimes Information Center database with lost or stolen firearms as
the physical review is being conducted.




                                                     5
                                          Restricted Information
Postal Inspection Service Controls Over                                     SA-AR-03-002
 Firearms Inventory Reconciliation


Evaluation of Management’s Comments

Management’s comments are fully responsive to the recommendation. Management’s
actions taken or planned should correct the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff during the
review. If you have any questions or need additional information, please contact
Michael L. Thompson, director, Inspection Service Audits, at (703) 248-2100, or me at
(703) 248-2300.



Ronald D. Merryman
Deputy Assistant Inspector General
  for Technology/Oversight

Attachment

cc: James J. Rowan, Jr.
    Donna M. Harris
    Susan M. Duchek




                                                     6
                                          Restricted Information
Postal Inspection Service Controls Over                            SA-AR-03-002
 Firearms Inventory Reconciliation


                    APPENDIX. MANAGEMENT’S COMMENTS




                                                     7
                                          Restricted Information
Postal Inspection Service Controls Over                            SA-AR-03-002
 Firearms Inventory Reconciliation




                                                     8
                                          Restricted Information
